0

BECKER GALLAGHER
Briefs

and

DONNA J. WOLF, J.D.
JULIE

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 unbound and
40 copies of the foregoing Petition for Writ of
Certiorari in Jeffrey Fairbanks v. State of Indiana,
were sent via Next Day Service to the U.S. Supreme
Court, and 3 copies were sent Next Day Service and email to the following parties listed below, this 25th day
of July, 2019:
Curtis T. Hill
Indiana Attorney General
Laura Renee Anderson
302 West Washington Street
IGCS-5th Floor
Indianapolis, IN 46204
(317) 232-6201
efile@atg .in. gov
laura.anderson@atg.in.gov

Counsel for Respondent
Alexandra C. Siskopoulos
Counsel of Record
Siskopoulos Law Firm, LLP
33 West 19th Street, 4th Floor
New York, New York 10011
(646) 942-1798
acs@siskolegal.com

Counsel for Petitioner

I
I

I

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

1

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

A. KERSHNER, J.D.

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on July 25, 2019.

DonnaJ. W~
..
Becker Gallagher Leg Publishing, Inc.
8790 Governor's Hill Drive
Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

[seal]

JULIE ANNE KERSHNEg
Notary Public, Staie of Ohi~
My Coinmission Expires
February 21, 2023

